            ...
             ..                        ' -   . .




 READINESS TO EXPAN D 

HEAD START EN ROLLM ENT





     C;f,RVICf5'




                   Richard P .   Kuss erow
                   INSPECTOR GENERAL

    lq"dm
                   AUGUST'1991
    . '. '                                    ' -   '.         - -                -'

                               L.
                             OFFICE-
                                                      1- ,
                                             OFINSPRCfOR-                 GENERA
The mission   of the Officeoflnsp ctorGeneral (OIG), as mandated by Public Law95­,!1 .
452 , as amended , is to protect the intc:grity of the Department of Health ahdHuman
Services ' (HHS) programs as wellaslhehealthand . welfare of beneficiariessetvedby ,
 those programs. This statutory mission iscarr iedout through a naticinwidenetworkof
 audits , investigations , and inspections cQnducted by threeOIG operating .components:
 the Offce , of Audit Services , the Offce of Inve tigations , and the Office of Evaluation
 and Inspections. The OIG alsQ informs the Secretary of HHS of program and
. management problems ,       and tecommenctscourses to correct them.

                               OFFICE OF 
                   AUDIT SERVICE
 TheOIG' s Office of Audit Services (OAS) provides all auditing services for HHS
 either by conducting audits with its own audit resOurces or by overseeing audit work
 done by others. Audits examine the performance of HHS programs and/or its grantees
 and contractors in carrng out their respective responsibilties , and are intended to
 provide independent assessments : of HHSprograms and operations in order to reduce
 waste , abuse and mismanagernentand to promote economy and effciency throughout
 the Department.
                               OFFICE OF INVETIGATIONS
 TheOIG' s Office of InvestigationsJOI) conducts criminal , civil , and administrative
 investigations of allegations of wrongdoing inHHSprograms or to HHS beneficiaries
 and of unjust enrichment by providers. The investigative efforts of 01 lead to criminal
 convictions , administrative sanctions , or civil ' money penalties. The 01 also oversees
 State i\1edicaid fraud control units which investigate and prosecute fraud and patient
 abuse in the Medicaid program.

               OFFICE OF 
              EVALUATION                   AN    INSPECTONS

 The OIG' s Office of Evaluation and Inspections (OEI) conducts short- term
 management and program evaluations (called inspections) that focus on issues
 concern to the Department , the Congress, and the public. The findings and
 recommendations contained in the inspections reports generate rapid , accurate , and up-
 to- date information on the efficiency, vulnerability, and effectiveness of departmental
 programs. This report was prepared in the New York Regional Offce under the
 direction of Regional Inspector General Thomas F. Tully. Project staff included:

 Joseph J. Corso Jr. , Project Leader                                     Jodi Nudelman
 Joseph Benkoski                                                          Alan S. Meyer
 Wiliam Counihan                                                          Alan S. Levine , Headquarters
 Luci1Je M. Cop
Department of                 Health and Human Services

                          OFFICE
    INSPECTOR GENERAL





     READINESS TO EXPAND

    HEAD START ENROLLMENT





              ~ S f,RVJCES.




                                 Richard P. Kusserow
                                 INSPECTOR GENERAL
        '0


             lt-l
                    " "d.()
                                 OEI- 02- 91- 00741
                    EXECUTIVE SUMMARY

PURPOSE

This inspection was conducted to assess the capacity of the Head Sta    system   to successfully
manage the current and future enrollment expansion process.


BACKGROUND

This inspection was requested by the Assistant Secretar for Management and Budget (ASMB),
Department of Health and Human Services (DHHS), based on concerns about the Head Star
system s capacity to expand at a time of rapidly increasing appropriations.

The national Head Star program is in its 26th year, and is now administered by the newly
fOff1ed Administration for Children and Families     (ACF). It serves primarly low- income
children , ages 3 to 5, and their families. Currently about 1, 300 grantees operate local Head Start
programs.

There were two rounds of Head Star enrollment expansion in FY 1990 totaling $266 million, a
21 percent increase over FY 1989; another $159 milion, or a 10 percent increase, is scheduled
for FY 1991. Total enrollment is projected to increase from 450, 970 children to nearly 600, 000
children , during the same period. The Administration s budget for FY 1992 requests $100
million in additional Head Start funding, for a total of about $2. 06 billon.


METHODOLOGY

We conducted strctUred interviews with a stratified random sample of 75 grantees (2 large
grantees were added), with 52 OHDS staff, including 5 or 6 from each of 10 regions, and 6
OHDS headquarters ' staff. We obtained data and perceptions regarding their experiences with
enrollment expansion in 1990 and their plans and capacity to handle further expansion in 1991.


FINDINGS

Grantees Report Meeting Enrollment Expansion Goals

      Grantees have met their enrollment expansion goals for the first round of 1990 Head Start
      expansion and plan to full y meet them for the second round by September 1991.

      Most grantees report few problems with the FY 1990 grant process.

      Three- quarters plan to apply for the 1991 expansion funds.
Acquiring Space Is Grantees ' Primary Problem

    . In the  FY 1990 expansion , most needed more space, cited frequently as a major problem
      and , typically, the biggest problem.

      Eighty- five percent of grantees wil need more space to implement the FY 1991 expansion.
      Half consider space a major problem. However, they expect to find suitable space by
      September.

Grantees And Federal Staff Have Differing Views About The Impact Of Expansion On
Qualiy
     Most grantees are generally positive about the expansion s impact on quality; 20 percent,
     however , think expansion wil either have no effect on or wil lower quality.

     In contrast , slightly more than half the Federal staff doubt whether grntees receiving
     expansion funds can maintain or improve quality over the next several years, while nearly
     40 percent say they have no reason to be concerned.

Federal Capacity To Manage Expansion Appears Limited

     Regional staff feel they lacked sufficient time and staff to monitor and assist grantees in
     the FY 1990 funding rounds; also, most regional and headquaners staff claim a serious
     lack of resources to assess and assist grantees in FY 1991.

     Federal staff lack timely data on grantee enrollment.

     Most Head Start managers feel communication between headquaners and regions needs
     improvement.

RECOMMENDATIONS

The ACF should:

     address promptly the resource needs of ACF staff;

     provide maximum lead time for grantee expansion and offer technical assistance and
     guidance to grantees to resolve expansion problems;

     develop a system to collect timely data on grantee enrollment progress during expansions;
     and

     assure more direct and effective communication between headquaners and regional Head
     Start staff.
AGENCY COMMENTS

The Assistant Secretary for Children and Familes has reviewed the draft of this report and
supports the study s findings and recommendations. The Assistant Secretar noted , however
that the report s conclusions apply only to expansion efforts of the magnitude the Head Star
program experienced during FY 1990. We agree with this assessment. The complete comments
of the Assistant Secretary are included in the Appendix.
                                                            ........
                                                                  ..................................   .... ..................
                                                                     .............. .... .......... ..................         ...........
                                                                                                                       ............
                                                                                                                                ............
                                                                                                                                        ....




                         TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTR() D U CTI () N.. ...... .........,.............. ........................ .................. ...... ............ 



        Purpose................................................................................................................ .


        Background................................................................ .........................................


        Methodology...................................................... ..................................................


FINDINGS ..,....................................... 


RECD MMENDA TI                      NS .... .............. ......


APPENDIX A

        Comments of the Assistant Secretar for Children and Familes................... A                                                 - 1
                              INTRODUCTION

PURPOSE

This inspection was conducted to assess the capacity of the Head Stat system to successfully
manage the current and future enrollment expansion process.


BACKGROUND

This inspection was requested by the Assistant Secretar for Management and Budget (ASMB),
Department of Health and Human Services (DHHS), based on concerns about the Head Stan
system s capacity to expand at a time of rapidly increasing appropriations.

The Head Start program , now in its 26th year, was established under Title V of the Economic
Opportunity Act of 1964. A national program , it serves primarly low- income children , age three
to the age of compulsory school attendance, and their families. It is now administered by the
newly fonned Administration for Children and Families (ACF), DHHS, which absorbed the
Office of Human Development Services (OHDS) where Head Stan was fonnerly managed.
OHDS, the Administration for Children , Youth and Families (ACYF) and the Head Stan Bureau
(HSB) administer the program. The program s services include education , health care (including
medical , dental , nutritional and mental health services), parental involvement and social services.
At least 10 percent of the enrollment in each State must be made available for handicapped
children.

Head Start grantee agencies car out the program s objectives. There are currently about 1 300
grantees operating. A grantee agency may delegate all or pan of its responsibility for the
operation of the program to a public or private nonprofit organization. There are about 600 such
delegate agencies. The largest grantees , with enrollment in the thousands of children , are
referred to as " supergrantees.

Grants are awarded and monitored by OHDS regional staff in the Office of Community
Programs and by the American Indians Programs Branch and Migrant Programs Branch in
OHDS headquarters. The law requires that the Federal grant shall not (but with certain
exceptions may) exceed 80 percent of the approved costs of the program. The grantee must
contribute twenty percent of the costs in cash or in kind.

Funding for Head Start grew substantially from $1.24 bilion in FY 1989 to $1.95 bilion in FY
1991. Two rounds of enrollment expansion funding took place in FY 1990, the first for $100
million , the second for $166 millon. Thus, the total increase for FY 1990 was $266 milion , a
21 percent increase over the FY 1989 funding level. The second round resulted from an
unexpected supplemental allocation by Congress late in the fiscal year. For the first round,
grantees applied in April; they applied in either July or October 1990 for the second round. The
Congress pemlitted the supplemental funds to be obligated by December 31 , 1990. In approving
the awards , it was anticipated that full enrollment of children would take until September 1991.

Further expansion of $159 milion , or a 10 percent increase, is scheduled for FY 1991. In
addition , $1. 95 million is available for quality enhancements to retain and recruit qualified staff
and to increase staff salaries and fringe b nefits. Total enrollment is projected to increase to
nearly 600, 000 children.

Head Start reauthorizing legislation projects expansion funding of $4. 27 bilion for FY 1992;
$5. 92 billion for FY 1993; and $7. 66 bilion for FY 1994. The Administration s budget for FY
1992 requests $100 million in additional Head Sta funding, most of which is to be used for
further enrollment expansion , bringing the total to about $2. 06 billon, as outlined below:



      Fiscal Year                1990             1990 supp.        1991       1992
      Appropriation              $1.38B*          $166M*           $1.95B      $2. 06B
      Expansion $                $99.             $166M            $159M**     $90.
      Expansion goals            37, 500          60,                 000
      Guidance issued            2/90             6/90             4/91
      Funds obligated              9190             12/90

      * B = billion; M = million
      ** An additional S241M is provided for quality enhancements ($ 195M)
      and other projccts , initiatives and assistance ($46M).



METHODOLOGY

We held strctured   interviews with  officials from a stratified random sample of 75 grantees (plus
2 supergrantees), with 52 OHDS staff, including 5 or 6 from each of 10 regions, and 6 OHDS
headquarters staff, to obtain data and perceptions based on their experiences with enrollment
expansion in 1990 and backgrounds of regional staff from each region. We also asked them
about their plans and capacity to handle further expansion in 1991.

We held discussions in each OHDS region with the OHDS Regional Administrator, the Director
of Fiscal Operations , the Director of Community Programs (and any supervisors on their staffs),
and two program specialists. We conducted interviews in person with six OHDS, ACYF and
HSB officials in five regions and in headquaners.

We selected a stratified random sample of 75 grantees from the total of 1 , 140 (excluding
American Indian and Migrant grantees) who received enrollment expansion awards in 1990.
includes: 25 of the 100 (25 percent) who received more than $400,000 in FY 1990 expansion
funding; 25 of the 513 (5 percent) who received between $51 000 and $399, 000; and 25 of the
527 (5 percent) who received no more than $50, 000. None of the grantees from the latter
stratum received funds for the first round of FY 1990 funding.
We weighted grantee responses in each stratum to reflect the proportion which their stratum
represented of the sample universe. In analyzing responses to questions which did not apply to
all respondents, however, we reduced the universe based on the proponion of each stratum to
whom the question did not apply. We also visited two supergrantees to lear about the
experience of very large grantees with expansion; however, their responses are nOt included in
grantee sample projections.

We held telephone discussions with the Head Start Director and/or the Executive Director of the
75 grantee agencies; and we conducted discussions with the two supergrantees at their offces.
We obtained data and perceptions regarding their experience with enrollment expansion in 1990
and their plans and capacity to handle further expansion in 1991. These discussions were held
with these grantees in February and March 1991 , after two rounds of expansion funding in 1990
and prior to the recent round of expansion funding begun in May 1991.
                                          FINDINGS

 GRANTEES REPORT MEETING ENROLLMENT EXPANSION GOALS

 Goals for FY 1990 first round met; grantees confident about meeting second round goals

 Grantees report having met 97 percent of their enrollment expansion goals for the first round.
 They also expect to fully meet them for the second round of FY 1990 by September 1991. (See
 Graph)


                              GRANTEES REPORT MEETING

                             ENROLLMENT EXPANSION GOALS

                      97%
                               % of funded children enrolled now or by                  9/91­

          100


                                                                                         74%

                                                       59%


                                                                         41%

                                                                                                       26%




                     First Round                     Second Round                              Total
                   404 children funded 56 469children funded 91 873 children                             funded

                           00 Now enrolled         Will enroll by 9/91
                *Numbers and percents of children funded and enrolled are
                 projections to the national universe of 1                     140 grantees.


Few grantees report problems with the 1990 grant process

Ninety percent of the grantees in the first round and 92 percent in the second round leared early
about both rounds of expansion and used this lead time to begin planning. Somewhat more than
half the grantees received help from regional offices. Over 90 percent of them rate the assistance
as either very or somewhat helpful. Almost 75 percent repon having had no problems with the
Federal instructions they received prior to applying in the fIrst round. Similarly, nearly
percent report experiecing no problems with second-round instructions.
 Most grantees wil apply for FY    /99/   expansion funds

 Sev enty- five percent of the grantees plan to apply in 1991. Sixteen percent wil not because they
 feel they re not ready to expand. (Nearly a third of the latter grantees are reluctant to expand
 their programs before fully implementing current programs; a quarter said there was competition
 from public preschool programs for the same childrn; the remaining grantees cited varous
 reasons including lack of space, staffng problems and realistic assessments of limited capacity
 to expand further). The remaining nine percent of grantees will predicate their decision to apply
 on the availability of space , the timing of the grant and the amount of the award. Almost all say
 there are substantial numbers of unserved childrn in their service areas.

 ACQUIRING SPACE IS GRANTEES' PRIMARY PROBLEM

At least eighty percent of the grantees needed more space in order to expand enrollment in each
round; at least 4 of lOin each round rated obtaining space a major problem. Of those having a
major problem of any kind, 30 percent in the fIrst round and 40 percent in the second round
considered space their biggest problem. The space problem was most prevalent among grantees
funded to increase enrollment by more than 200 children in each round. A typical grantee
comment was " I may fInd a building, but I wil have to renovate it. " Others cited strict licensing
requirements and delays in license approval.

The large majority of grantees in each round had to hire more teachers and support staf and
obtain more transportation to expand enrollment. Most did not consider this a major problem.

Eighty- five percent of the grantees anticipate needing more space to expand enrollment in FY
1991; 47 percent of them expect this to be a major problem. Of those who believe space wil be
a major problem , most say it wil be their biggest problem. Nevertheless, many grantees believe
that suitable space can be obtained if enough lead time is provided. As indicated in the previous
finding, grantees receiving four to six months advanced notifIcation of expansion funding in FY
1990 were able to acquire space for expansion within twelve months of notifIcation.

Eighty- three percent of the grantees will have to have additional staff and sixty-four percent wil
need more transportation to expand enrollment in FY 1991. Again , few see these as major
problems , with suitable lead time.


GRANTEES AND FEDERAL STAFF HAVE DIFFERING VIEWS ABOUT THE
IMPACT OF EXPANSION ON QUALITY

Most grantees are generally positive about the expansion s impact on quality. About two-thirds
expect expansion funds to raise the quality of services over the next few years. A majority
express this without qualification , but others feel it is contingent upon monies being allocated for
quality enhancements , such as increased staff salares and benefIts. (As noted on page 3, $195
million wil be made available to grantees in FY 1991 for quality enhancements). In contrast
about 20 percent believe expansion funds will either have no effect on or wil lower quality.
These grantees typically feel quality depends upon meeting the rising cost of staff salares and
benefits, rent and insurance. Grantees also noted the adverse effect on quality caused by the
rising incidence of dysfunctional Head Sta families. The remaining 15 percent are uncertain
about the impact of expansion on quality.

In contrast to the relatively positive expectations of grantees, slightly more than half the regional
and headquarers OHDS staff doubt that grantees who receive expansion funds wil be              e to
maintain or improve the quality of their services. They question whether allocations for salares
and costs per child will be suffcient, whether grantees wil have the capacity to maintain quality,
and whether Federal staff will be able to evaluate grantee quality. Nonetheless, nearly 40 percent
say they have no reason to be concerned about the quality of grantee services. The remaining 12
percent are uncertain about their position on the question.

Regional respondents estimate that 107 grantees in their regions ar   not ready   for further
expansion. That is about nine percent of all grantees nationally. Reasons most often cited
include weaknesses in grantee infrastructure and management, " high risk" status, and lack of
eligible children.


FEDERAL CAPACITY TO MANAGE EXPANSION APPEARS LIMITED

Regional stafffelt unable to adequately assist grantees in FY 1990

Regional staff point to a number of barers to their having been able to help grantees. Fifty
percent feel there was not enough time to adequately help grantees prepare applications in each
round. Similarly, almost fifty percent report they were unable to do as good ajob as they d have
liked in helping grantees prepare their expansion funding applications in the first round; 40
percent were not able to do so for grantees who applied in the second round by July 16, and 20
percent felt unable to do so for grantees who applied in the second round by October 15.
Overall , half blamed lack of time and insufficient staff for keeping them from doing a better job.

Most regional and headquarters staff are concemed about the lack of resources for FY 1991

Eighty percent say they lack sufficient resources (both staff and travel funds) to monitor and
assist grantees in the coming enrollment expansion effort. Having more staff but not enough
travel money, or the reverse would not solve the problem. Providing technical assistance to
grantees and performing comprehensive monitoring calls for more onsite visits than are currently
possible. Only 3 of 10 OHDS Regional Administrators say they can provide technical assistance
or assess grantee expansion progress and problems.

Staff size and grantee workloads var widely among regions: there are 3 to 17 program staff in
each region (the national total is 97) and average staf workloads range from 10 to 27 grantees.
Regional offices currently have 31 staff vacancies, most of which are in Head Star slots.

A positive note is that current regional Head Star professional program staff reflect depth in
their educational background and program experience. Most have completed undergraduate
and/or graduate studies related to Head Start. Many also have prior work experience with Head
 Start. Over half have from 10 to 20 or more years of Federal experience working with Head
 Start grantees.

. Federal Head Start . taff lack timely information on enrollment

 The regional offices and headquarers staff lack ongoing infonnatjon on grantee expansion
 progress. They rely primarily on what grantees report to them annually (in June), as par of a
  Head Start Program Infonnation Report. " They can only verify this infonnation during on site
 monitoring visits usually made to grantees no more frequently than once every three years.

 Most Head Start managers believe communication between headquarters and regional offices
 needs improvement

 Over half the Head Start managers do not consider communication between headquarers and
regional offices to be as efficient and effective as they d like. They expressed concerns about the
headquarters and regional structure under which the Head Star program has operated and other
communications problems.

The structure problem relates to the following: the regional Head Stat program staff has
operated under the Offce of Human Development Services (OHDS), Offce of Community
Programs (OCP), which existed only in the regions and had responsibility also for the Runaway
Youth Program. (As noted above, the OHDS was recently absorbed by ACE) In headquarers
HSB was within ACYF, a division non-existent in the regions. All official ACYF/HSB
communications to the regions had to go through the Office of Regional Operations in OHDS
headquarters to reach OHDS Regional Administrators. Similarly, all official Head Sta/OCP
communications to ACYF/HSB had to follow the same procedure in reverse. Both regional and
headquarters Head Start staff say this situation caused unnecessar delays in the processing of
policy issuances and funding guidances, and has been problematic during the enrollment
expansIon.

Another concern cited by ACYF and HSB staff is that OCP Head Star staff were accountable to
OHDS, not ACYF or HSB , for their perfonnance rating. One respondent said, "Head Star is a
$2 bilion program and growing, and should be separated from other programs in OHDS. We
need regional staff dedicated solely to the Head Star program.

Regional OCP Head Start staff say that little opportunity exists for meaningful regional staff
input into headquarters policy decisions, and there is limited regional decision-making authority.
One respondent stated, " We have 100 pairs of eyes and ears in the communities, " but noted that
headquarters does not utilize this experience in developing funding guidances and enrollment
expansion policy.

Given the creation of ACF, there may be organizational changes planned which wil address
some or all of the above-cited concerns.
                       RECOMMENDATIONS

, The ACFshould:

      provide, as soon as possible ,
                                   ACYF and regional staff with the resources to effectively
      manage and monitor their increasing responsibilities, including staff and discretionary
      travel funds for more frequent grtee site visits;

      provide maximum lead time for expansion implementation and offer technical assistance
      and guidance to resolve major expansion problems, including obtaining suitable space,
      qualified teachers and support staff, and trnsportation;

      develop a system to collect timely data on grantee enrollment progress during expansions;
      and

      assure more direct and effective communication between ACYF , HSB and regional Head
      Star staff.


 AGENCY COMMENTS

The Assistant Secretar for Children and Familes has reviewed the draft of this report and
supports the study s findings and recommendations. The Assistant Secretar noted , however
that the report s conclusions apply only to expansion efforts of the magnitude the Head Star
program experienced during FY 1990. We agree with this assessment. The complete comments
of the Assistant Secretar are included in the Appendix.
              APPENDIX
Comments of the A ssistant Secretary for Children and Families
, "                                      / ­
     :':. '   .-   ,.-
                                                                       tLJ!
                                                                                                         \- :=
                                                                                                            - . -, -.-
                                                                                                                   :-,
                                                                                                                - .-
                                                                                                                 . .



             DEPARTME!\T OF HEALTH & HUMA    SERVICES                       r-r
                            DIG-            .I                        ADMINISTRA TION FOR CHILDREN AND FAMILI
                            DIG-                                      Office of the Assistant Secretary. Suite 600

                            DIG-                                      370 L' Enfant Promenade, S.   W. -; 

       JJL
                199\        AIG-
                            OGC/IG
                                                                      Washington, D.   C. 20447

                            EX SEC
                                                                                               - n;:
                            DATE         7fl"                                                                      ;-11

                                                                                                                 , C'




      TO:              Richard P. Kusserow                                                               c-      : -:t ;.,,1

                       Inspector General
                                                                                 III
                       Department of Health and Human Services


      FROM:            Assistant Secretary                                                               c.,

                         for Children and Families


      SUBJECT:         Response to Office of Inspector General Draft                           Report:
                        Readiness To Expand Head Start Enrollment
                       OEI-02-91-00741

      Thank you for the opportunity to review and comment on your draft

      report entitled "Readiness To Expand Head Start Enrollment.

      We are supportive of the findings and recommendations in this

      report and think it presents a fair and accurate picture of the

      FY 1990 expansion effort. We note, however, that your

      conclusions only apply to expansion efforts of the magnitude we
      experienced during FY 1990. Significantly greater funding
      increases , for example , might lead to different conclusions.
      We would like to comment on the four recommendations contained on
      page 7 of the report and provide some technical corrections for
      your consideration in preparing the final report.

      OIG Recommendation


              The Administration for Children and Families (ACF) should

              provide, as soon as possible, ACYF and regional staff with

              the resources to effectively manage and monitor their

              increasing responsibilities, including staff and

              discretionary travel funds for more frequent grantee site

              visits
      ACF Comment


      We concur with this recommendation. The shortage of staff and
      travel funds to assure the quality of ' the program expansion
      efforts is critical. We are moving to increase the numer of
      staff in the Head Start program both in Headquarters and in

      regional offices. In FY 1991, we will be adding an additional 

      staff to Headquarters. Should Congress approve our FY 1992

      request for additional employees, we anticipate a further staff

      increase that would include more staff in the regions.

      The need for additional increases for future years is also being

      assessed.
. Page 2 - Richard P. Kusserow
 Similarly, travel funds have been increased in FY 1991 and we
 hope to obtain additional increases in future years. Our
 intention is that these steps will correct the deficiencies that
 have existed in the past and bring us to a staffing level that

 will assure our ability to " effectively manage and monitor our

 increased responsibilities.


 OIG Recommendation
      The ACF should provide maximum lead time for expansion

      implementation and offer technical assistance and guidance

      to resolve major expansion problems, including obtaining

      suitable space , qualified teachers and support staff, and

      transportation.
ACF Comment


We concur with this recommendation and will make every effort in

future years to assure that both grantees and regional staff are

given guidance on implementing expansion as soon as possible in

the fiscal year.  We also agree that sufficient technical
assistance and maximum lead time for expansion implementation
should be provided to grantees who experience problems operating
under compressed timeframes. Several regional off ices pointed
out that lead time has not been a problem so far, because the
required implementation dates for grantees were extended when
necessary. We would like to emphasize , however, that no
 standard" has been developed. Nei ther this report nor our
experiences with Head start expansion has allowed us to quantify
the term " adequate lead time.
OIG Recommendation
      The ACF should develop a system to collect timely data on

      grantee enrollment progress during expansions.


ACF Comment

We agree that grantees ' implementation of enrollment expansion

needs to be tracked to assess progress and resolve problems that
are identified. Our regional offices have maintained close
contact with grantees to follow their progress in implementing
expansion. However, a more formal system of periodic reports
from grantees could provide more reliable data and help assure
that the expansion initiative is being implemented successfully.
Wi thin the limits of available resources , especially staff in
Headquarters and regional offices , we will explore the
development of such a system.
Page 3    - Richard P. Kusserow

OIG   Recommendation
4.     The ACF should assure more direct and effective
       communication between ACYF, HSB and regional Head start
       staff.
ACF Comment

We agree that direct and effective communication between

Headquarters and regional staff is very important in assuring a

successful expansion effort and we will continue to explore ways

to improve this process. While some regional offices and

Headquarters staff may have experienced communication problems

which may have caused unnecessary delays in the expansion

process, several regions reported that their expansion efforts

were successful and their relationships with Headquarters staff

were posi ti ve.
Technical Comments


Page 1	     The first sentence of paragraph five refers to "ACYF

            regional staff" which do not exist; we suggest that

            the acronym "ACYF" be deleted. It should also be noted

            in this sentence that grants are awarded and monitored

            by staff in the AIer ican Indians Programs Branch and

            Migrant Programs Branch, as well as by regional staff

            in the Office of Community Programs.


Page 2      On the first line, "$1. 95 billion " should be changed to

             $195 million.


Page 	      It is stated in paragraph one that 16% of the grantees
            will not apply for expansion funds in FY 1991. As
            basis for designing appropriate technical assistance to
            such grantees, it would be useful if this section is
            expanded to include additional information collected by
            OIG on the reasons for this position.

            We suggest that the following statement be added to the

            end of paragraph  two: "However, since the report only
            covers early expansion efforts , we do not know how much
            lead time is " enough.


Again, thank you for the opportunity to review and comment on

th i s report.

                           h:f4

